    UNLIQUIDATED OBLIGATIONS FOR AIR FORCE-FUNDED
            PROJECTS ADMINISTERED BY THE
        NAVAL FACILITIES ENGINEERING COMMAND


Report No. D-2001-161                      July 26, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
NAVFAC                Naval Facilities Engineering Command
DFAS                  Defense Finance and Accounting Service
FIS                   Facilities Information System
STARS-FL              Standard Accounting and Reporting System – Field Level
                        Office of the Inspector General, DoD
Report No. D-2001-161                                                    July 26, 2001
(Project No. D2001FD-0014.001)

Unliquidated Obligations for Air Force-Funded Projects Administered
           by the Naval Facilities Engineering Command

                                 Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare consolidated financial statements. The
Air Force Audit Agency requested us to assist in its review of the Statement of
Budgetary Resources for the Air Force General Fund by reviewing unliquidated
obligations for Air Force-funded military construction projects administered by the
Naval Facilities Engineering Command. Unliquidated obligations include undelivered
orders and accrued expenditures unpaid and are reported on the Statement of Budgetary
Resources as “Obligated Balance, Net – End of Period.”

The Naval Facilities Engineering Command manages design and construction for the
Navy, and administers certain design and construction projects for the Army and the
Air Force. During FYs 1998 through 2000, the Naval Facilities Engineering Command
received $3.5 billion for design and construction projects. Of the $3.5 billion,
$327 million was received from the Air Force. The Standard Accounting and
Reporting System - Field Level was the official accounting system to account for funds
administered by the Naval Facilities Engineering Command. This report discusses the
Defense Finance and Accounting Service (DFAS) Norfolk and the Naval Facilities
Engineering Command accounting and review of unliquidated obligation balances for
Air Force-funded military construction projects administered by the Naval Facilities
Engineering Command and supports the Air Force Audit Agency’s disclaimer of
opinion on the FY 2000 Air Force General Fund Financial Statements.

Objectives. The audit objective was to determine whether obligated balances and
related disbursements for Air Force-funded projects administered by the Naval
Facilities Engineering Command were fairly presented in the FY 2000 Statement of
Budgetary Resources for the Air Force General Fund. Specifically, we determined
whether unliquidated obligation balances were valid; and whether obligations and
disbursements were recorded timely and accurately, and were properly approved and
supported in accordance with DoD guidance. We also reviewed management controls
and compliance with laws and regulations related to the audit objective. Appendix A
includes a discussion of the audit process and our review of the management control
program.

Results. The FY 2000 Air Force General Fund Financial Statements included
$185.6 million in unliquidated obligations for Air Force-funded construction projects
administered by the Naval Facilities Engineering Command. Review of 13 funding
authorizations involving $50.1 million of the $185.6 million showed that undelivered
orders and accrued expenditures unpaid, shown in the Standard Accounting and
Reporting System - Field Level, were understated by $2.7 million, and disbursements
were understated by $8.1 million. The understatements occurred because of interface
problems between the Standard Accounting and Reporting System – Field Level and the
Facilities Information System used by the Navy. In addition, Navy field organizations
did not complete required triannual reviews of unliquidated obligations. As a result,
information in the Standard Accounting and Reporting System – Field Level was not
reliable for either management purposes or financial reporting, and the FY 2000 Air
Force General Fund Financial Statements contained errors. See the Finding section for
additional details.

Although our review was limited to the Air Force funds administered by the Naval
Facilities Engineering Command, the problems identified are symptomatic of a much
larger problem because the interface problems impacted accounting for all design and
construction projects administered by the Naval Facilities Engineering Command. The
FY 2000 Navy General Fund Financial Statements included $1.1 billion in unliquidated
obligations from construction related appropriations.

Summary of Recommendations. We recommend that the Commander, Naval Facilities
Engineering Command, in coordination with DFAS, establish a comprehensive program
for correcting the erroneous accounting data in the Standard Accounting and Reporting
System – Field Level, and perform triannual reviews of obligations as required by the
DoD Financial Management Regulation. We also recommend that DFAS Norfolk
develop desk operating procedures to aid in training new employees to rapidly assume
their duties.

Management Comments. The Naval Facilities Engineering Command, in coordination
with DFAS, has established a comprehensive program to address and correct the
erroneous accounting data in the Standard Accounting and Reporting System –Field
Level. A priority of the program is to reconcile the processes involved with the transfer
of data from the Facilities Information System to Standard Accounting and Reporting
System. The Naval Facilities Engineering Command will perform the required triannual
reviews of unliquidated obligations with assistance from DFAS. DFAS nonconcurred
with the recommendation to establish milestones for completing programming and testing
of interfaces between the Facilities Information System and the Standard Accounting and
Reporting System because the interfaces passed acceptance testing prior to system
implementation. DFAS Norfolk established written procedures for processing Air Force
lines of accounting and will provide training to new employees. See the Finding section
of the report for a discussion of management comments and the Management Comments
section for the complete text of the comments.

Audit Response. Actions taken by management show that extensive and commendable
work is being done to correct the problems identified. We considered management
comments responsive except the DFAS comment related to testing of the interfaces prior
to systems implementation. Testing of the interfaces was not sufficient to ensure that
obligation and accrual transactions were accurately converted and recorded in the
Standard Accounting and Reporting System. We continue to believe that comprehensive
transaction testing should be performed to ensure that post implementation actions correct
the interface deficiencies. We request that DFAS reconsider its position and provide
additional comments on the need for additional testing by August 27, 2001.



                                           ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objectives                                                     1

Finding
     Recording and Reporting Information Supporting Unliquidated
       Obligations                                                  2

Appendixes
     A. Audit Process
          Scope                                                     9
          Methodology                                              10
          Management Control Program Review                        11
          Prior Coverage                                           11
     B. Report Distribution                                        12

Management Comments
     Department of the Navy                                        15
     Defense Finance and Accounting Service                        18
Background
     Audit Requirements. The audit was performed in response to Public Law
     101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990, as
     amended by Public Law 103-356, the “Federal Financial Management Act of
     1994,” October 13, 1994. We delegated the audit of the FY 2000 Air Force
     General Fund Financial Statements to the Air Force Audit Agency. As part of
     their audit of the Statement of Budgetary Resources, the Air Force Audit
     Agency attempted to substantiate unliquidated obligations as of September 30,
     2000. The FY 2000 Air Force General Fund Statement of Budgetary Resources
     reported $88.2 billion in Obligations Incurred and $33.4 billion in “Obligated
     Balance, Net – End of Period” (commonly referred to as unliquidated
     obligations). We assisted the Air Force Audit Agency in reviewing unliquidated
     obligations for Air Force-funded military construction projects administered by
     the Naval Facilities Engineering Command (NAVFAC). Inspector General,
     DoD, Report No. D-2001-058, “Oversight of the Air Force Audit Agency Audit
     of the FY 2000 Air Force General Fund Financial Statements,” February 21,
     2001, endorses the Air Force Audit Agency’s disclaimer of opinion on those
     statements. This part of the audit focused on Defense Finance and Accounting
     Service (DFAS) Norfolk accounting for Air Force-funded construction projects
     administered by NAVFAC.

     DFAS Norfolk. DFAS Norfolk maintained the official accounting records for
     NAVFAC and used the Standard Accounting and Reporting System – Field
     Level (STARS-FL) to account for the Air Force military construction projects.
     DFAS Norfolk also used STARS-FL to account for other projects funded by
     Army and Navy military construction appropriations.

     Naval Facilities Engineering Command. NAVFAC manages facilities design
     and construction for the Navy, and selected design and construction projects for
     the Army and the Air Force. During FYs 1998 through 2000, NAVFAC
     received $3.5 billion for design and construction of various military construction
     projects, which included $327 million from the Air Force. NAVFAC maintains
     project management and financial information on de


Objectives
     The audit objective was to determine whether obligated balances and related
     disbursements for Air Force-funded projects administered by NAVFAC were
     fairly presented in the FY 2000 Statement of Budgetary Resources for the Air
     Force General Fund. Specifically, we determined whether reported unliquidated
     obligation balances were valid; and whether obligations and disbursements were
     recorded timely and accurately, and were properly approved and supported in
     accordance with DoD guidance. We also reviewed management controls and
     compliance with laws and regulations related to the audit objective. Appendix A
     includes a discussion of the audit process and our review of the management
     control program.


                                         1
           Recording and Reporting Information
           Supporting Unliquidated Obligations
           The FY 2000 Air Force General Fund Financial Statements included
           $185.6 million in unliquidated obligations for Air Force-funded
           construction projects administered by NAVFAC. Review of 13 funding
           authorizations involving $50.1 million of the $185.6 million showed that
           undelivered orders and accrued expenditures unpaid, shown in
           STARS-FL, were understated by $2.7 million, and disbursements were
           understated by $8.1 million. Also, NAVFAC field organizations did not
           complete required triannual reviews of unliquidated obligations. The
           understatements occurred because numerous obligation, accrual, and
           disbursement transactions were not recorded in STARS-FL. This
           occurred primarily because interface programs between STARS-FL and
           FIS were not adequately tested before the conversion to STARS-FL.
           The backlog in recording transactions and failure to perform triannual
           reviews of obligations occurred because resources were devoted to
           identifying and correcting interface problems, and transactions had to be
           researched and manually recorded in STARS-FL. Further, employee
           turnover at DFAS Norfolk reduced the number of personnel trained to
           research and record accounting transactions.

           As a result, information shown in STARS-FL was not reliable for either
           management purposes or financial reporting. Accounting personnel
           recognized the interface problems and used more reliable information
           from FIS in preparing the FY 2000 financial statements. However,
           unliquidated obligations for the projects administered by NAVFAC were
           still overstated in the Air Force financial statements.


DoD Accounting Policy
    Obligations. DoD Regulation 7000.14-R “DoD Financial Management
    Regulation,” volume 1, “General Financial Management Information, Systems,
    and Requirements,” June 1999, defines obligations as the amount of orders
    placed, contracts awarded, services received, and similar transactions that
    occurred during an accounting period that will require payment during the same
    or a future period. Such amounts include payments for which obligations have
    not previously been recorded, and adjustments for differences between
    obligations previously recorded and actual payments to liquidate those
    obligations. The amount of obligations incurred is segregated into undelivered
    orders and accrued expenditures-–paid or unpaid.

    Recording and Processing Financial Data. DoD Regulation 7000.14-R,
    volume 6A, “Reporting Policy and Procedures,” chapter 2, “Departmental
    Financial Reports Roles and Responsibilities,” December 2000, requires DFAS
    to establish procedures to ensure that financial reports are prepared and verified
    to the official accounting records. The regulation also provides that DFAS shall


                                        2
    establish procedures to ensure that data provided by the customer (including data
    input to finance and accounting systems by the customer) are accurately and
    timely recorded and processed in finance and accounting systems. In addition,
    transactions that have occurred during a reporting period are uniquely identified
    with the reporting period and should be processed in order to meet the reporting
    schedule for the report due date.

    Required Reviews of Obligations. DoD Regulation 7000.14-R, volume 3,
    “Budget Execution—Availability and Use of Budgetary Resources,” chapter 8,
    “Standards for Recording Commitments and Obligations,” December 1996
    (with changes through December 2000), establishes guidance for triannual
    reviews of commitment and obligation transactions. The regulation requires
    accounting offices to provide funds holders with listings or automated media
    identifying both outstanding commitments and unliquidated obligations recorded
    for the funds holder. Accounting offices are also requested to provide listings
    or automated media identifying accounts payable and accounts receivable which
    enable the funds holder to verify that proprietary and budgetary accounts are
    valid, accurate, and reconciled. DoD Regulation 7000.14-R also requires funds
    holders to review outstanding commitments and unliquidated obligations (to
    include accounts payable and accounts receivable), irrespective of whether the
    funds holder or the accounting office actually records the commitments or
    obligations in the official accounting records.


Obligations, Accruals, and Expenditures Recorded in
  STARS-FL
    The obligation, accrual, and expenditure amounts shown in STARS-FL for Air
    Force-funded projects administered by NAVFAC were not reliable as of
    September 30, 2000. Review of 13 funding authorizations, involving
    $50.1 million of the reported $185.6 million of unliquidated obligations for the
    Air Force-funded projects, showed that undelivered orders and accrued
    expenditures unpaid were understated by $2.7 million and accrued expenditures
    paid (disbursements) were understated by $8.1 million.

    Interfacing of Systems. During FY 2000, NAVFAC converted to STARS-FL
    as the official accounting system. NAVFAC initiated obligation, accrual, and
    certain disbursement transactions in FIS. Interface programs were developed to
    record FIS transactions in STARS-FL. NAVFAC and DFAS performed limited
    testing of the interface programs before converting to STARS-FL in March
    2000. However, when NAVFAC and DFAS Norfolk converted to STARS-FL,
    the interface programs did not work properly. Numerous programming
    deficiencies caused transactions to not be recorded in STARS-FL. NAVFAC
    and DFAS have identified numerous post implementation issues and have been
    working to correct these issues.




                                        3
           Undelivered Orders and Accrued Expenditures Unpaid. For the 13 sampled
           funding authorizations, involving $50.1 million in unliquidated obligations,
           $2.7 million in undelivered orders and accrued expenditures unpaid were not
           recorded in STARS-FL. The understatement was a direct result of the
           deficiencies in the interface programs. DFAS and NAVFAC were aware of the
           reliability problems with the data in STARS-FL and used information in FIS for
           the FY 2000 financial statements, which increased undelivered orders and
           accrued expenditures unpaid by $45.1 million.

           Disbursements. Review of disbursements for the 13 funding authorizations
           sampled showed that $8.1 million of disbursements (accrued expenditures paid)
           incurred in FY 2000 were not posted to STARS-FL as of September 30, 2000,
           and were not included in the reported disbursements in the financial statements.

                  Payments to Contractors. Comparison of payment information shown
           in STARS-FL with available documentation (invoices certified for payment or
           disbursement vouchers) for all contracts associated with the 13 sampled funding
           authorizations indicated that the $27.9 million of disbursements recorded in
           STARS-FL were understated by $7.4 million. The understatement occurred
           primarily because interface problems forced the accounting personnel to
           research and manually record unmatched disbursements.1 This effort caused a
           backlog in recording disbursements. According to DFAS Norfolk, staffing
           turnover also contributed to the backlog. Staffing turnover impacted the
           backlog because DFAS Norfolk did not have adequate standard operating
           procedures to allow for a smooth transition during times of employee turnover.

                   Supervisory Inspection Overhead Fees. In addition to disbursements
           made to contractors, NAVFAC charged a supervisory inspection overhead fee.
           This charge, 6 percent of the accrued expenditures recorded in FIS, was to
           recover the cost of administering the design and construction projects.
           Payments for the supervisory inspection overhead were calculated and initially
           recorded in FIS. The transactions were to be recorded in STARS-FL by the
           interface program. For the 13 sampled funding authorizations, accrued
           expenditures paid were understated by $.7 million in STARS-FL because the
           interface program did not record the supervisory inspection overhead.

           Backlog of Unrecorded Transactions. The backlog previously discussed for
           entering information related to Air Force-funded projects was only a small
           portion of the total backlog. Air Force-funded projects were less than
           10 percent of the total funds managed by NAVFAC. As of February 2001,
           DFAS Norfolk estimated that more than 44,000 hours of overtime at a cost in
           excess of $1 million would be required to research and process the backlog

1
    Disbursement transactions that do not match an obligation are not automatically recorded to STARS-FL.
    Accounting personnel are required to research the disbursement to determine that an obligation exists
    and that the accounting information is correct before recording the disbursement. Accordingly,
    unrecorded obligations caused additional workload for the accounting personnel.




                                                     4
    caused by the interface program deficiencies. The backlog included obligation
    and accrual transactions, unmatched disbursement and problem disbursement
    transactions, transactions for reimbursable programs, and the related
    reconciliation with the Department of the Treasury for all of NAVFAC.

    Corrective Actions. NAVFAC and DFAS identified interface program
    deficiencies and have initiated measures to reprogram and test the interface
    between FIS and STARS-FL utilizing the Fleet Material Support Office,
    NAVFAC Information Technology Center, and a contractor. NAVFAC
    established a goal of September 2001 to complete the reprogramming effort.
    We did not evaluate whether that goal was reasonable or attainable. However,
    we believe that a more comprehensive program is needed. Goals should also be
    established for evaluating NAVFAC business practices, eliminating the backlog
    of unrecorded transactions and correcting erroneous accounting information, and
    validating the accuracy of that data. Accounting information will not be reliable
    until all of those actions are completed.


Reporting Unliquidated Obligations
    The FY 2000 Air Force General Fund Statement of Budgetary Resources
    included unliquidated obligations, valued at $185.6 million, for the Air Force-
    funded construction projects administered by NAVFAC. However, DFAS
    Denver was unable to use STARS-FL (the official accounting records) to obtain
    this balance and added $45.1 million to unliquidated obligations to data shown
    in STARS-FL based on information in FIS. (The increases included
    $6.8 million in undelivered orders and $38.3 million in accrued expenditures
    unpaid.) DFAS Denver calculated those values using FIS values for undelivered
    orders and accrued expenditures and disbursement values (accrued expenditures
    paid) provided by DFAS Norfolk from STARS-FL. We did not verify the
    accuracy of the $45.1 million from FIS. However, our review of the
    obligations data in FIS is based on the 13 sampled transactions. The sampled
    transactions showed that data from FIS on undelivered orders and accrued
    expenditures were more accurate than STARS-FL.

    Despite efforts to use more reliable information on undelivered orders and
    accrued expenditures from FIS, the unliquidated obligations reported in the
    Statement of Budgetary Resources were overstated because $8.1 million of
    disbursements (which reduced unliquidated obligations) were not recorded.
    Reliance on STARS-FL data caused the FY 2000 Air Force Statement of
    Budgetary Resources to overstate unliquidated obligations. Accrued
    expenditures unpaid were overstated because disbursements recorded in
    STARS-FL were understated.




                                        5
Triannual Reviews of Obligations
    According to NAVFAC personnel, field organizations did not perform triannual
    reviews of obligations (which include obligations initiated, undelivered orders,
    and accrued expenditures paid and unpaid) as required by DoD Regulation
    7000.14-R. Review of obligations, accruals, and disbursements related to the
    37 contracts associated with the 13 sampled funding authorizations showed:

           •   two contract modifications, which created obligations valued at
               $27,094, were not recorded in either FIS or STARS-FL (The
               unrecorded obligations occurred because of errors in manually
               entering data rather than systemic deficiencies.); and

           •   $8.1 million in disbursements were not recorded (as previously
               discussed) in STARS-FL.

    Conducting the required triannual reviews should have identified those errors.
    NAVFAC did not attempt to complete the year-end reviews because of the post-
    implementation interface problems previously discussed. In addition, NAVFAC
    did not take steps to verify that the obligation and accrual information recorded
    in FIS was accurate or that all of the obligations were still needed. Because of
    the interface problems, the reviews are even more important to verify the
    accuracy and integrity of obligations, accruals, and expenditures recorded in
    STARS-FL.


Conclusion
    Use of the alternative method to calculate the $185.6 million in undelivered
    orders and accrued expenditures unpaid reduced the misstatement in the
    FY 2000 financial statements. However, the inability to use the official
    accounting system—STARS-FL—to produce accurate information for the annual
    financial statements highlights the need to correct the interface problems. Our
    review was limited to the Air Force funds managed by NAVFAC. However,
    the interface problems identified and the resulting backlog in recording
    corrective transactions are symptomatic of a much larger problem because the
    interface deficiencies have and will continue to impact accounting for all
    projects administered by NAVFAC. The impact on the reliability of the
    financial statements of the Department of the Navy General Fund could be much
    greater. Reported obligations incurred for the FY 2000 financial statements
    showed $1.6 billion in obligations incurred and $1.1 billion in unliquidated
    obligations for military construction and related appropriations.




                                        6
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commander, Naval Facilities Engineering
    Command, in coordination with the Defense Finance and Accounting
    Service:

           a. Establish a comprehensive program for correcting the erroneous
    accounting data in the Standard Accounting and Reporting System – Field
    Level. The program should include milestones for:

              •   programming and testing the interfaces between the Facilities
                  Information System and the Standard Accounting and
                  Reporting System – Field Level,

              •   evaluating whether business practices need to be changed to
                  implement the interface,

              •   eliminating the backlog in unrecorded transactions and
                  correcting erroneous accounting information in Standard
                  Accounting and Reporting System – Field Level, and

              •   validating the accuracy of the Standard Accounting and
                  Reporting System – Field Level data.

    Navy Comments. The Navy concurred with the finding and indicated that
    NAVFAC in coordination with DFAS has established a comprehensive program
    to address and correct the erroneous accounting data in STARS-FL. The
    priorities of this program are to correct the data in STARS-FL and to reconcile
    the processes involved with the transfer of data from FIS to STARS-FL.

    DFAS Comments. DFAS generally concurred with the recommendation except
    the recommendation to establish milestones for programming and testing
    interfaces between STARS-FL and FIS. DFAS disagreed with the audit
    conclusion that understatements in unliquidated obligations and disbursements
    reported in STARS-FL occurred because interface programs between
    STARS-FL and FIS were not adequately tested before conversion to
    STARS-FL. The interfaces between FIS and STARS-FL were tested, and all
    interfaces passed acceptance testing prior to implementation. In reviewing the
    interface, documented post-implementation issues illustrate that STARS-FL
    account balances are inaccurate primarily due to valid transactions passing
    STARS-FL interface edits and then posting to the correct general ledger
    accounts with an incorrect line of accounting from FIS.

    Regarding other parts of the recommendation, DFAS stated that several
    programs have been established to correct accounting data in STARS-FL.




                                       7
NAVFAC and DFAS have identified issues that are causing incorrect general
ledger balances, have developed a priority list for correcting the data in STARS-
FL, and have committed significant resources to resolving the issues. DFAS
also included as an attachment to its comments a listing of tasks with
responsibility, priority, status, and other pertinent information along with
schedules showing plans being taken to reduce the backlog.

Audit Response. Actions taken by NAVFAC and DFAS show that extensive
and commendable work is being done by both organizations to correct the
problems identified before the audit began and subsequent to the audit.
Management comments were generally responsive, and actions taken and
proposed satisfy the intent of the recommendation with one exception. The
audit showed and working level personnel at both DFAS and NAVFAC stated
that more extensive interface testing was necessary to ensure accounting
information entered into FIS is correctly recorded in STARS-FL through the
interface. Even though management stated that all interfaces passed acceptance
testing, they acknowledged and subsequently identified other issues causing
incorrect general ledger balances and have now committed significant resources
to resolve those issues. We continue to believe that the interfaces should be
fully tested to ensure that post implementation actions correct the deficiencies
identified in this report. Acceptance testing, prior to implementation, did not
ensure that obligation and accrual transactions were accurately recorded in
STARS-FL. We request that DFAS reconsider its position on the need for
additional interface testing and provide comments on the final report.

       b. Perform the triannual reviews of unliquidated obligations
required by DoD Regulation 7000.14-R.

Management Comments. The Navy and DFAS concurred and indicated that
NAVFAC, with assistance from DFAS, will perform the triannual reviews of
unliquidated obligations required by DoD Regulation 7000.14-R.
2. We recommend that the Director, Defense Finance and Accounting
Service Norfolk, develop desk operating procedures that include procedures
for researching and recording rejected transactions and unmatched
disbursements and ensure that new employees are adequately trained in
using those procedures so they can rapidly assume their duties.

Management Comments. DFAS concurred and has established written
procedures for Air Force lines of accounting, including procedures for
researching and recording rejected transactions and unmatched disbursements.
New employees will be issued the written procedures and provided hands-on
training to ensure duties are assumed rapidly to diminish any adverse impact to
customers and DFAS operations.




                                    8
Appendix A. Audit Process

Scope
    Work Performed. During FYs 1998 through 2000, the Air Force provided
    approximately $327 million to NAVFAC for design and construction projects.
    We examined NAVFAC procedures and controls for recording obligation and
    accrual transactions in FIS. We reviewed DFAS Norfolk procedures for
    recording disbursements for Air Force-funded projects in STARS-FL. In
    addition, we reviewed the processes used to record transactions in STARS-FL
    that were initiated in FIS.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and finance systems. (01-DoD-2.5.1.).

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
           on financial statements. (01-DoD-2.5.2.).

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           Financial Management Area. Objective: Eliminate problem
           disbursements. Goal: Improve timeliness and accuracy of obligations.
           (FM-3.3)




                                        9
    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Our audit work consisted of an examination of procedures and controls for
    recording obligations, accruals, and disbursements for Air Force-funded
    construction projects administered by NAVFAC. We judgmentally sampled
    13 funding authorizations involving $50.1 million of unliquidated obligations
    from a universe of funding authorizations with $185.6 million of unliquidated
    obligations as of September 30, 2000. The universe of funding authorizations,
    provided by DFAS Denver, was the file sent from NAVFAC to DFAS Denver
    for reporting the FY 2000 obligation data. The sample of funding
    authorizations was selected based on amount of unliquidated obligations and
    fiscal year of the appropriation.

    We reviewed the obligations, accruals, and disbursements for 37 contracts
    associated with the 13 funding authorizations to determine whether they were
    adequately supported, properly recorded in the accounting system, and
    accurately reported for inclusion in the Statement of Budgetary Resources.

    Computer-Processed Data. We relied on the computer-processed data from
    FIS to select the sample of funding authorization included in our review. We
    concluded that the data were sufficiently reliable to meet the audit objective.
    We did not rely on the obligation, accrual, and disbursement data recorded in
    STARS-FL and FIS. We tested that data to evaluate obligations and
    disbursements used in the compilation of the Air Force Statement of Budgetary
    Resources.

    Audit Type, Period, and Standards. We performed this financial-related audit
    from November 2000 through April 2001 in accordance with audit standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD, subject to limitations discussed in this appendix. We
    did our work in accordance with generally accepted Government auditing
    standards except that we were unable to obtain an opinion on our system of
    quality control. The most recent external quality control review was withdrawn
    on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.




                                       10
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the management controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of NAVFAC and DFAS Norfolk management controls over the
    unliquidated obligation balances and the recording of obligations and
    disbursements.

    Adequacy of Management Controls. We identified material control
    weaknesses as defined by DoD Instruction 5010.40. Management controls at
    NAVFAC and DFAS Norfolk were not adequate to ensure that the recorded
    values of obligations, accrued expenditures, and disbursements in STARS-FL
    were correct. Recommendations 1.a., 1.b., and 2., if implemented, will
    improve the accuracy of recorded values in STARS-FL. A copy of the report
    will be provided to the senior official responsible for management controls in
    the Department of the Navy and DFAS.

    Adequacy of Management’s Self-Evaluation. NAVFAC identified obligation
    review as an assessable unit and performed a review during FY 2000.
    However, NAVFAC did not identify and report the material control weakness
    identified by audit and NAVFAC field organizations did not perform year-end
    reviews of unliquidated obligations recorded in STARS-FL.

Prior Coverage
    The General Accounting Office, the Inspector General, DoD, and the Military
    Department audit agencies have conducted multiple reviews related to financial
    statement issues. General Accounting Office reports can be accessed on the
    Internet at http://www.gao.gov. Inspector General, DoD, reports can be
    accessed on the Internet at http://www.dodig.osd.mil/audit/reports. Naval
    Audit Service reports can be accessed on the Internet at
    http://www.hq.navy.mil/navalaudit. Air Force Audit Agency reports can be
    accessed on the Internet at http://www.afaa.hq.af.mil.




                                       11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Commander, Naval Facilities Engineering Command
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland
   Director, Defense Finance and Accounting Service Denver
   Director, Defense Finance and Accounting Service Norfolk

Non-Defense Federal Organization
Office of Management and Budget




                                              12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government Reform




                                      13
Department of the Navy Comments




                       15
16
17
Defense Finance and Accounting Service
Comments




                   18
19
20
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

       Paul J. Granetto
       Richard B. Bird
       Marvin L. Peek
       Joel K. Chaney
       Gregory M. Mennetti
       Judith A. Cook
       Lisa C. Rose-Pressley
